E

Legal Briefs

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

Est. 1923

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com
No. - - - MONSTER ENERGY COMPANY, F/K/A
HANSEN BEVERAGE COMPANY, PETITIONER
V.

CITY BEVERAGES, LLC, D/B/A
OLYMPIC EAGLE DISTRIBUTING

AFFIDAVIT OF SERVICE
I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 28th day of May, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar
days. Packages were plainly addressed to the following:
SEE ATTACHED

To be filed for:
NORMAN L. SMITH
TANYA M. SCHIERLING
DANIELE. GARDENSWARTZ
SOLOMON WARD SEIDENWURM
& SMITHLLP
401 B St., Suite 1200
San Diego, CA 92101
(619) 231-0303

JOSEPH R. PALMORE
Counsel ofRecord
SAMUEL B. GOLDSTEIN
MORRISON & FOERSTER LLP
2000 Pennsylvania Ave., NW
Washington, DC 20006
(202) 887-6940
JPalmore@mofo.com
DAN MARMALEFSKY
MORRISON & FOERSTER LLP
707 Wilshire Blvd.
Los Angeles, CA 9001 7
(213) 892-5200
Counsel for Petitioner

Subscribed and sworn to before me this 28th day of May, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

Affiant

SERVICE LIST
Counsel for Respondents:
Michael Vaska
Counsel of Record
Rylan Weythman
Devra R. Cohen
Asti Gallina
FOSTER GARVEY PC
1111 Third A venue
Suite 3000
Seattle, WA 98101
206-447-8895
mike.vaska@foster.com
devra.cohen@foster.com
rylan.weythman@foster.com
asti.gallina@foster.com
Jonathan Solish
David A. Harford
BRYAN CAVE LEIGHTON PAISNER
3161 Michelson Drive
Suite 1500
Irvine, CA 92612
949-223-7107
j onathan. so lish@bryancave.com
david.harford@bryancave.com

